HHS/OIG, Audit -"Review of Medicare Payments for Beneficiaries With Institutional Status at United Healthcare
of Ohio,"(A-07-04-01011)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments for Beneficiaries With Institutional Status at United Healthcare of Ohio," (A-07-04-01011)
March 18, 2005
Complete
Text of Report is available in PDF format (383 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine if capitation payments to United were
appropriate for beneficiaries reported as institutionalized for the audit period.  We found that United received
Medicare overpayments of $13,128 for 20 beneficiaries incorrectly reported as institutionalized.  United officials
stated the errors occurred because United made administrative and clerical errors and because the institutions did not
always provide correct information to verify the institutionalized status of the beneficiaries.  We
recommended that United refund $13,128 to the Federal Government and ensure capitation payments for beneficiaries reported
as institutionalized are claimed in accordance with Federal laws and regulations.  United
agreed with our findings and recommendations.